   Office of Inspector General




   IT Capital
  Investment
Decision-Making
    Follow-up
     March 29, 2004
      Audit No. 365
    IT CAPITAL INVESTMENT
  DECISION-MAKING FOLLOW-UP


                    EXECUTIVE SUMMARY
Effective capital investment in information technology (IT) is critical to the
achievement of Commission program goals and objectives. The processes used to
make IT investment decisions throughout the federal government have been the
subject of critical Congressional oversight and audits by the General Accounting
Office (GAO). In 2001 our Office conducted a Business Process Review of
Commission IT investment decision-making. This report describes our follow-up
audit findings and recommendations concerning the current state of the
Commission's IT investment decision-making process.
The Commission has made progress in establishing an IT investment process that
complies with applicable laws and regulations, and incorporates best practices from
the public and private sectors. Notably, the Commission's Information Officers
Council has devoted significant time and effort to improving the decision-making
process; we commend the members for their dedication.
However, the Commission’s process still does not meet the minimum criteria of
GAO’s Information Technology Investment Management Maturity Model and is not
in full compliance with applicable laws and regulations. IT investment decision-
making remains a “significant problem” for the Commission.
The governance of this critical Commission function needs to be strengthened. The
Commission needs to assign specific responsibility, and delegate appropriate
authority, for establishing a compliant and effective decision-making process. To
ensure that the necessary changes are completed timely, the Commission should
also implement a performance accountability process.
Management agreed with the audit findings and recommendations.



                 SCOPE AND OBJECTIVES
Our audit objective was to evaluate the Commission’s progress in implementing IT
capital investment control and decision-making best practices, and to follow-up on
our prior review (IT Decision-Making Process, Report No. 334, dated August 28,
2001). We conducted this review to:
   •   Ensure that IT investments selected by the Commission effectively supported
       Commission programs;
                                                                                  Page 2


       •   Assess and re-evaluate the effectiveness and implementation of audit
           recommendations made in our FY 2001 IT decision-making business process
           review;
       •   Evaluate the adequacy of the Commission’s IT governance processes for
           managing the material growth in its IT capital budget; and,
       •   Validate the Commission’s compliance with the IT capital planning and
           investment control mandates of the Clinger-Cohen Act.

To evaluate compliance with the Clinger-Cohen Act, we applied the General
Accounting Office’s IT Investment Management Framework for Assessing and
Improving Process Maturity.1
During the audit, we used questionnaires, applied judgmental sampling, and
conducted control self-assessments to obtain a general understanding of the
Commission’s IT investment decision-making framework and to solicit input on how
the Commission could improve its IT investment decision-making management
processes and controls. We also performed a review of the applicability of the
Clinger-Cohen Act and OMB implementing instructions to the Commission. Among
other procedures, we:
       •   Reviewed the Commission’s approved and draft IT capital planning and
           investment control policies, procedures, and implementing instructions;
       •   Obtained documentation and an understanding of how responsibility,
           accountability, and authority were assigned and communicated within the
           Commission’s IT investment management process;
       •   Obtained and reviewed in-house studies on capital planning and project
           management;
       •   Obtained and reviewed minutes and charters for the Commission’s
           Information Officers Council and IT Capital Planning Committee;
       •   Observed Information Officers Council proceedings and meetings;
       •   Obtained and reviewed the Commission’s FY 2003 and FY 2004 information
           technology budgets and execution plans;
       •   Obtained and reviewed the Commission’s FY 2003 IT investment portfolio;
       •   Reviewed quarterly IT investment status reports; and
       •   Reviewed IT project request and project analysis forms (business cases) used
           for FY 2003 IT capital investment decisions.

We performed our audit between November 2002 and December 2003, in accordance
with generally accepted government auditing standards.



                                       BACKGROUND
The Commission’s annual information technology (IT) operating budget has grown
significantly since 2001, when it totaled about $45 million. For FY 2004, the IT
operating budget will exceed $120 million.


1
    See http://www.gao.gov/special.pubs/ai10123.pdf

       IT Capital Investment Decision-Making Follow-Up (Audit 365)    March 29, 2004
                                                                                Page 3


In our 2001 review of the IT Decision-Making Process, we proposed a structured
process for developing IT proposals and evaluating, prioritizing, and recommending
IT investments for funding approval. During the review, initial minimal evaluation
criteria were developed, based on a survey of laws and regulations applicable to
federal IT capital investment decisions. The review also identified a group decision-
making methodology to enhance IT decisions.


MAJOR PARTICIPANTS

Information Officers Council (IOC)
In July 2001, the Commission revised its IT capital investment decision-making
process based on our business process review recommendations, and established an
enhanced organizational control structure. The IOC was formed and tasked with:
   •   Developing IT investment selection decision criteria;
   •   Developing and documenting the Commission’s IT selection process;
   •   Coordinating program office IT business strategies within and among the
       program areas;
   •   Developing functional requirements and justifications (business cases) for IT
       investments;
   •   Evaluating and prioritizing proposed IT investments; and
   •   Recommending investments to the Information Technology Capital Planning
       Committee (ITCPC) for funding.

The IOC, chaired by the Commission’s CIO, consists of senior staff from the major
program divisions and offices (Information Officers) who are familiar with both the
business and IT needs of their organizations. IOC members demonstrated a strong
appreciation and understanding of the importance of their role in evaluating
whether proposed IT investments would improve the Commission’s mission
performance. For example, in 2003, the IOC dedicated a significant amount of time
to review and validate the risks, benefits, and costs for about 70 IT investment
proposals submitted by the Commission’s divisions and program offices for funding
consideration. Although the IOC did not always maintain a documented audit trail
or use explicit selection criteria to support its IT investment funding
recommendations to the ITCPC, IOC members indicated that they generally applied
the IT investment selection principles and evaluation methods mandated by the
Clinger-Cohen Act. The IOC members devoted considerable time and effort to
improving the IT investment decision-making process; we commend the members for
their dedication.
We believe that the Commission can significantly improve its IT capital investment
decision-making processes and controls by: continuing to leverage the personal and
professional dedication of the information officers, capitalizing on their
understanding of the business use of IT within the Commission, and implementing
the recommendations contained in this report.




   IT Capital Investment Decision-Making Follow-Up (Audit 365)      March 29, 2004
                                                                                         Page 4


Information Technology Capital Planning Committee (ITCPC)
The Commission established the ITCPC to make final IT investment funding
decisions, based on IOC recommendations and policy direction from the Chairman.
Membership consists primarily of division directors and program office heads; the
Executive Director (ED) chairs the Committee. For FY 2003, the IOC and ITCPC
selected, prioritized, and approved about $21 million in IT initiatives.

Office of the Executive Director (OED)
Under the revised organizational structure, the OED was responsible for chairing
the ITCPC and establishing controls to:
    •    Reject project requests that did not comply with the Commission’s
         documented IT investment selection and evaluation criteria;
    •    Stop IT projects that were over budget, off schedule, lacked timely program
         decisions and data, or missed performance expectations; and
    •    Provide administrative support to the IOC and ITCPC.

The Office is also responsible for developing the Commission's overall strategic plan
and formulating the Commission's annual budgets. In addition, it oversees the
administrative functions of the Commission, including financial management,
human resources, contracting, and administrative services.

Office of Information Technology (OIT)
Within the revised structure, OIT provided project management support,
Commission-wide IT operations, and maintenance support. OIT management
selects, prioritizes, and approves operations, maintenance, and infrastructure
upgrades and enhancements for the Commission.
OIT’s FY 2003 operating budget totaled about $68 million, excluding about $21
million in program office IT initiatives. The OIT operating budget was managed
separately by OIT, and was not subject to review, analysis, and approval by the
Commission’s IOC and ITCPC.


RELEVANT LEGISLATIVE MANDATES, EXECUTIVE ORDERS,
AND FEDERAL POLICIES
The Clinger-Cohen Act (CCA) of 1996 (Division E of Public Law 104-106)2, Executive
Order 13011, Federal Information Technology3, OMB Circular A-130, Management
of Federal Information Resources4, and OMB Circular A-11, Part 7- Planning,
Budgeting, Acquisition, and Management of Capital Assets5 establish a

2
  See http://lcweb2.loc.gov/law/usa/us040106.pdf (pages 495 - 519)
3
  See http://www.cio.gov/documents/federal_it_jul_1996.html
4
  See http://www.whitehouse.gov/omb/circulars/a130/a130trans4.html
5
  See http://www.whitehouse.gov/omb/circulars/a11/current_year/s53.pdf and
   http://www.whitehouse.gov/omb/circulars/a11/current_year/part7.pdf

    IT Capital Investment Decision-Making Follow-Up (Audit 365)              March 29, 2004
                                                                                 Page 5


comprehensive framework for the management of information resources within the
Federal government. The Commission is to establish an IT governance framework
that implements and enforces the Chairman’s responsibilities to:
   •   Appoint a Chief Information Officer (CIO), as required by 44 U.S.C. 3506,
       who must report directly to the Chairman to carry out the responsibilities of
       the Paperwork Reduction Act, Clinger-Cohen Act, and Executive Order
       13011;
   •   Empower the CIO with sufficient authority to ensure that the Commission
       effectively (i) complies with the legislative IT capital planning and
       investment control mandates of Congress; (ii) implements the IT governance
       policies mandated by executive order; and, (iii) establishes internal controls
       that enforce Commission-specific policies that implement and comply with
       government-wide IT capital planning and investment control policies issued
       by the Office of Management and Budget (OMB);
   •   Ensure that program directors and office heads (program officials) are
       responsible for and held accountable in defining program information needs
       and developing information technology (IT) business strategies that define
       how they intend to use the capabilities of information technology to directly
       support their strategic missions;
   •   Foster measurable IT investment decisions that support the Commission’s
       mission needs through the use of integrated IT analysis, planning, budgeting
       and evaluation processes;
   •   Establish mission-based performance measures for IT investments that are
       aligned with Commission performance plans prepared pursuant to the
       Government Performance and Results Act of 1993 (Public Law 103-620); and,
   •   Implement management processes that assign responsibilities and assign
       clear lines of accountability for managing, selecting, controlling, evaluating,
       and terminating IT investments.


BEST PRACTICES – IT INVESTMENT DECISIONS
Section 5122, Capital Planning and Investment Control, of the Clinger-Cohen Act
defines the design and content of capital planning and investment control processes
that agency heads are to implement. The Chairman is responsible for the
Commission’s implementation of an IT capital planning and investment control
process. This process should establish an enforceable framework that accounts for
the improved operational and performance efficiencies that the Commission will
achieve from the use of taxpayer dollars to acquire information technology.
Specifically, the process is to:
   •   Provide an auditable framework for the selection, management, and
       evaluation of IT investments;
   •   Integrate the Commission’s processes for making IT budget, financial, and
       program management decisions;
   •   Include documented qualitative and quantitative investment selection,
       management, and evaluation criteria for comparing and prioritizing IT
       investments; and,



   IT Capital Investment Decision-Making Follow-Up (Audit 365)      March 29, 2004
                                                                                                            Page 6


      •    Provide the means for obtaining timely information regarding the progress of
           an investment, including system milestones for measuring progress, on an
           independently verifiable basis.

In addition, the Commission is to use performance and results-based management in
the governance of its investments in information technology.


IT INVESTMENT MANAGEMENT MATURITY MODEL
The figure below illustrates the five maturity stages of IT investment management.



                      MATURITY STAGES                          CRITICAL PROCESSES

                            STAGE 5               9 INVESTMENT PROCESS BENCHMARKING
                          LEVERAGING IT           9 IT-DRIVEN STRATEGIC BUSINESS CHANGE
                     FOR STRATEGIC OUTCOMES
                                                  9 POST IMPLEMENTATION REVIEW S AND FEEDBACK
                                                  9 PORTFOLIO PERFORMANCE EVALUATION AND
                            STAGE 4                 IMPROVEMENT
                          IMPROVING THE           9 SYSTEMS AND TECHNOLOGY SUCCESSIONS
                       INVESTMENT PROCESS           MANAGEMENT

                                                  9   AUTHORITY ALIGNMENT OF IT INVESTMENT BOARDS
                            STAGE 3               9   PORTFOLIO SELECTION CRITERIA DEFINITION
                      DEVELOPING A COMPLETE       9   INVESTMENT ANALYSIS
                       INVESTMENT PORTFOLIO       9   PORTFOLIO DEVELOPMENT
                                                  9   PORTFOLIO PERFORMANCE OVERSIGHT

                            STAGE 2               9   IT INVESTMENT BOARD OPERATION
                           BUILDING THE           9   IT PROJECT OVERSIGHT
                      INVESTMENT FOUNDATION       9   IT ASSET TRACKING
                                                  9   BUSINESS IDENTIFICATION FOR IT PROJECTS
                                                  9   PROPOSAL SELECTION
                            STAGE 1
                             CREATING
                                                  9 IT SPENDING W ITHOUT DISCIPLINED INVESTMENT
                      INVESTMENT AWARENESS
                                                    PROCESSES




Each stage builds upon the lower stages and enhances an organization’s ability to
manage its IT investments. IT investment management maturity indicative of a
Stage 1 organization is characterized as:
      •    Being ad hoc, unstructured, unpredictable, and not having widely shared and
           institutionalized investment and development processes;
      •    Having unpredictable project outcomes, which are not focused on the
           investment’s business benefits; and
      •    Having a selection process that is rudimentary, poorly documented, and at
           times inconsistent.

Organizations are generally assumed to initially have Stage 1 IT investment
management maturity.6




6
    Source: http://www.gao.gov/special.pubs/ai10123.pdf GAO maturity framework for assessing information
     technology investment management processes and practices of Federal agencies (See pages 7-12 of
     hyperlink for details on the characteristics and practices associated with each maturity stage).

      IT Capital Investment Decision-Making Follow-Up (Audit 365)                               March 29, 2004
                                                                                                                                    Page 7



                                                         AUDIT RESULTS
The graphs below illustrate our benchmarking of the Commission’s IT capital
investment decision-making process against GAO’s Stage 2 best practices for
selecting, controlling, and evaluating IT investments in accordance with the
fundamental IT governance mandates of the Clinger-Cohen Act.




                                                                             Implementation of Best Practices by Component
Status of 39 Best Practices
                                                                                     66%

                          46%                                                                                                          53%
                                                  41%                                                   46%    46%
                                                                                     6                                         35%
                                                                                                                                       9
                             18                                                22%
     13%                                              16                                                  6     6               6
                                                                                 2            11% 8%                    12%
      5
                                                                                              1   1                       2

                                                                                 COMMITMENT            PREREQUISITES          ACTIVITIES
                             Legend                                                (Policy)              (Resources)          (Outcomes)


      Stage 2 best practices in place, operating, clearly understood and
      followed.

      Stage 2 best practices are somewhat in place. Expected outcomes are
      some what defined, understood and followed.

      Stage 2 best practices not in place and operating. Expected outcomes
      are not defined nor are they clearly understood.




As illustrated above, the Commission has made progress in establishing and
implementing Stage 2 IT investment selection, control, and evaluation best
practices.7 Among other positive steps, the Commission has:
              •       Established an Information Officers Council and Information Technology
                      Capital Planning Committee to review and approve IT investments;
              •       Used a process to develop new IT investment proposals; and
              •       Made funding decisions for new IT proposals using an IT investment
                      selection process.

However, in our opinion, the Commission does not yet qualify for stage 2.
The Commission could significantly improve the governance of its $120 million FY
2004 IT investment portfolio, which is comprised of ongoing operations and planned

7
    Appendix A contains a detail listing of the 39 best practices by performance component. See
     http://www.gao.gov/special.pubs/ai10123.pdf for details on GAO’s best practices framework.

      IT Capital Investment Decision-Making Follow-Up (Audit 365)                                                   March 29, 2004
                                                                              Page 8


maintenance, development, modernization, and enhancement projects and
initiatives by:
      •   Appointing a full time Chief Information Officer (CIO) reporting to the
          Chairman and delegating to the CIO sufficient authority to enforce the IT
          capital planning and investment control mandates of the Clinger-Cohen
          Act;
      •   Developing, approving, publishing, and enforcing formal Commission-
          wide IT capital planning and investment control policies and procedures;
      •   Establishing clearly defined roles, responsibilities, and boundaries of
          authority and accountability for the Commission’s IT investment review
          and approval committees and program offices;
      •   Implementing auditable processes for selecting and approving IT
          investments;
      •   Establishing effective investment control processes that provide adequate
          visibility over IT investment life-cycle costs and project schedules;
      •   Implementing an IT investment evaluation process for evaluating
          whether IT investments where completed within cost, on schedule, and
          produced the operational outcomes expected from the investments; and
      •   Providing adequate resources and guidance to staff to effectively
          implement and enforce fundamental IT investment controls and
          processes.

Appendix B contains an example of a high-level IT investment process flow diagram
for selecting and managing IT investments, and evaluating IT investment decision-
making outcomes. The sample process flow diagram provides a possible approach
the Commission could adopt to strengthen its internal management control
structure and IT governance processes to comply with, and enforce the IT
investment selection, control, and evaluation best practices mandated by the
Clinger-Cohen Act.
Below, we discuss in more detail the specific IT investment control and decision-
making business process improvements that the Commission needs to address to
move to Stage 2 of the Information Technology Investment Management Maturity
Model.


CHIEF INFORMATION OFFICER
The Commission’s previous Chief Information Officer (CIO) did not have sufficient
authority to effectively administer, control, implement and enforce the IT capital
planning and investment control responsibilities mandated by the Clinger-Cohen
Act. In addition, the Commission’s CIO position remained vacant from October 2002
to January 2004.
Under the previous structure, the CIO did not report to the Chairman as required by
the Clinger-Cohen Act. Instead, the CIO was under the operational control of, and




   IT Capital Investment Decision-Making Follow-Up (Audit 365)    March 29, 2004
                                                                                                   Page 9


reported to the Commission’s Executive Director.8 As a result, the CIO was not
organizationally positioned to objectively lead, guide, and enforce the fundamental
IT governance processes required of the CIO position. In addition, the CIO’s
authority to enforce the principles of IT capital investment decision-making and
control was not defined.
In January 2004, the Chairman appointed a Chief Information Officer. Under the
current structure, the CIO reports to the Chairman and is the chair of the IOC.
However, the roles, responsibilities, authorities, and span of control of the CIO, and
members of the Commission’s Information Officers Council (IOC) and Information
Technology Capital Planning Committee (ITCPC) have not yet been documented,
approved (see next finding), or communicated.

          Recommendation A
          The Chairman should delegate to the CIO the necessary authority to issue
          and enforce Commission-wide IT policy and regulations, and to implement
          the recommendations in this report.

The Chairman’s Office has indicated that these authorities have been operationally
delegated to the CIO.

          Recommendation B
          The CIO, in conjunction with the Offices of the General Counsel and
          Executive Director, should prepare an Action Memorandum to the
          Commission to modify 17 CFR § 200.13 to formally delegate authority to
          issue IT policies and regulations to the CIO. They should also consider
          whether the delegation for telecommunications policy authority should be
          modified.

          Recommendation C
          Within 60 days of the date of this report, the Chairman should approve a
          process to track the CIO’s progress in implementing each of the
          recommendations in this report. Appendix C contains an example of an
          implementation schedule that could be used or incorporated into other
          management reporting systems (e.g., the dashboard reports).



CAPITAL PLANNING AND INVESTMENT CONTROL POLICIES
While the Commission has taken steps to implement the IT capital planning and
investment control best practices mandated by the Clinger-Cohen Act, essential
plans, policies, guidance, and controls were either not developed, remain under


8
    Day-to-day management of the Commission’s financial management, procurement activities, human
    resources management, and information technology operations is under the operational control and
    direction of the Executive Director, who reports to the Chairman.

      IT Capital Investment Decision-Making Follow-Up (Audit 365)                   March 29, 2004
                                                                                                     Page 10


development, or are awaiting approval from the Office of the Executive Director
(OED). For example:
      •    The Office of Information Technology’s Strategic Information Technology
           Plan, which establishes the strategic direction for IT capital planning and
           tactical operations within the Commission, remained in draft until October
           2003;
      •    The Commission’s IT Capital Planning and Investment Control policy, which
           establishes Commission-wide policy on the responsibilities for planning,
           selecting, budgeting, allocating, managing, controlling, and evaluating
           information resources, remains in draft since June 2002; and
      •    The Commission’s proposed capital planning and investment control process
           detail was never formally approved and adopted by the Commission’s ITCPC.

In addition, the Commission’s IOC and ITCPC operated without formally approved
and documented charters that clearly defined the IT governance roles,
responsibilities, procedures, criteria, and processes that they were to follow and
apply when evaluating the merits of proposed IT investments, and when making
final IT investment decisions. We also identified several IT planning-related work
groups and committees that operated without charters, and that were not aligned
and fully integrated into the Commission’s IT capital planning and investment
control management framework. These work-groups and committees include the
EDGAR9 Steering Committee; EDGAR Requirements Sub-committee; External
Database Committee; and Web Advisory Committee. We are also aware of at least
one “no cost” IT contract (with estimated annual expenditures of $5 million to $6
million) that did not go through the Commission's IT investment process.
We conclude that the absence of clearly defined and formally approved IT
governance policies, criteria, and procedures has resulted in an IT capital planning
and investment control management framework that is (i) undisciplined, (ii) subject
to broad interpretation and application by Commission executives, managers, and
staff and (iii) lacks auditable and enforceable standards and controls. The
governance over this important Commission function needs to be strengthened.

           Recommendation D
           The CIO should assess, revise as appropriate, and reissue a Commission-wide
           Information Technology Strategic Plan that addresses the IT business needs
           of the Commission’s divisions and program offices.

           Recommendation E
           The CIO, in coordination with OED, the IOC, and the ITCPC, should finalize
           and publish a Commission-wide IT capital planning and investment control
           process policy.



9
    The Commission’s Electronic Data Gathering, Analysis and Retrieval (EDGAR) system receives, stores
     and distributes electronic filings submitted to the Commission in accordance with securities laws and
     rules.

      IT Capital Investment Decision-Making Follow-Up (Audit 365)                      March 29, 2004
                                                                                                        Page 11


         Recommendation F
         The OED and CIO, in coordination with the ITCPC, should jointly develop,
         approve, and publish a charter for the ITCPC.

         Recommendation G
         The CIO, in coordination with the IOC and OED, should develop, approve,
         and publish a charter for the IOC.

         Recommendation H
         The CIO should identify all IT planning-related work groups and integrate
         them into the Commission’s IT capital planning and investment control
         (CPIC) process. All so-called “no-cost” IT contracts should also be considered
         for inclusion in the IT investment process.


PROCESS FOR SELECTING IT INVESTMENTS
We determined that some of the recommendations made in our FY 2001 IT decision-
making business process review for selecting IT investments were not fully
implemented. For example:
     •   The Commission’s process and control structure for selecting IT investments
         was not formally documented;
     •   Criteria for selecting, prioritizing, and recommending IT investments for
         funding to the ITCPC were not formally approved, documented, and used to
         validate and approve the risks, benefits, and costs of proposed IT
         investments;10
     •   Commission program offices did not publish and disseminate IT business
         strategies on how they planned to use IT to attain their mission goals and
         objectives; and
     •   Business cases, as required by OMB Circular A-11, were not always
         prepared.11

In addition, about $68 million of the Commission’s $89 million FY 2003 IT operating
budget was not under the purview of the Commission’s IOC and ITCPC. This
significant portion of the Commission’s IT investment portfolio was managed



10
   Members of the Information Officers Council told us that they (i) informally considered the Commission’s
   strategic goals and objectives for all major and non-major IT investments; (ii) informally considered
   government-wide objectives in detail for all major investments; (iii) informally considered all requirements
   outlined in the Clinger-Cohen Act and other Acts, as warranted; (iv) informally considered security
   requirements for all projects; (v) vigorously questioned alternative investment solutions for all projects;
   and (vi) obtained assistance in evaluating the managerial and technical risks of project proposals.
11
   See http://www.whitehouse.gov/omb/circulars/a11/current_year/s53.pdf and
   http://www.whitehouse.gov/omb/circulars/a11/current_year/part7.pdf for Exhibit 53 and Exhibit 300 business
   case requirements. The Commission requires all IT investments of $25,000 or more to go through the IT
   capital planning process. However, the Commission has not formally identified or approved levels of
   business case detail for varying IT investment cost thresholds.

     IT Capital Investment Decision-Making Follow-Up (Audit 365)                         March 29, 2004
                                                                                                    Page 12


separately by the Office of Information Technology (OIT). OIT selected, prioritized,
and managed these IT investments using a separate process internal to OIT.12
We could not validate the reasonableness of the Commission’s basis to select,
prioritize, recommend, and approve IT investments for funding because
documentation was not maintained to support how proposed investments were
evaluated, prioritized, and selected for funding. In addition, we could not obtain
documentation to support which investment selection criteria were used, and
whether the evaluation criteria were consistently applied to validate and evaluate
the benefits, risks, and investment alternatives for about 70 IT investment
proposals. Also, we could not verify and validate whether the selection and approval
criteria applied within OIT were consistent with the criteria and ranking factors
used by the IOC. As a result, we could not validate the basis used by the
Commission to support its selection, prioritization, recommendations, and approval
to fund IT investments included in the Commission’s $89 million FY 2003 IT
operating budget.
We conclude that the Commission could strengthen its IT selection process by
formally developing, approving, publishing, and enforcing a management control
structure for selecting IT investments similar to the sample management control
structure illustrated in Appendix D. In addition, Section 300 of OMB Circular A-11
(see Appendix G) is a useful resource to identify relevant selection criteria for
adoption by the Commission.

           Recommendation I
           The CIO, in coordination with the ITCPC, IOC, OED, and the Office of
           Financial Management (OFM), should establish, approve, publish, and use a
           single Commission-wide IT investment control process and structure to
           develop the Commission’s annual IT operating budget, and to select,
           prioritize, and fund all IT investments (e.g., all $89 million of the FY 2003 IT
           budget).

           Recommendation J
           The CIO, in coordination with the ITCPC and IOC, should establish, approve,
           and publish standard IT investment evaluation criteria to guide business
           case development and evaluation.

           Recommendation K
           The CIO, in coordination with the ITCPC and IOC, should establish,
           implement, and follow a documented process for scoring, prioritizing, and
           funding IT investments based on business case and project justification
           analyses.




12
     The $86 million was comprised of ongoing operations and maintenance, and application and infrastructure
     upgrades and enhancements to existing systems and infrastructure.

       IT Capital Investment Decision-Making Follow-Up (Audit 365)                    March 29, 2004
                                                                               Page 13


       Recommendation L
       The CIO, in coordination with the ITCPC and IOC, should establish, approve,
       and publish Commission-wide policy on the IT investment dollar thresholds
       that require business cases or some less comprehensive analysis.

       Recommendation M
       The CIO, in coordination with the ITCPC and IOC, should establish and
       publish business case development guidelines that comply with OMB policy
       and guidelines.

       Recommendation N
       The CIO, in coordination with the ITCPC and IOC, should annually solicit
       business strategy input from Commission program offices on how the
       program offices plan to use IT to improve their mission performance.

       Recommendation O
       The CIO, ITCPC, and IOC should establish a process for using the program
       office IT business strategies and the OIT strategic IT plan in their review,
       analysis, approval, and monitoring of the Commission’s IT investment
       portfolio.


PROCESS FOR CONTROLLING IT INVESTMENTS
Our review of the Commission’s controls for managing approved IT investments
showed that adequate controls were not established to proactively oversee and
identify whether IT project management activities were effective in:
   •   Controlling IT project costs;
   •   Meeting project schedules and milestones; and
   •   Attaining established performance expectations.

As a result, we conclude that the Commission did not implement an effective IT
investment control process that enforced the use of meaningful IT investment cost,
schedule, and performance variance analyses to help guide its project management
activities and decisional outcomes. We also conclude that the Commission did not
establish an effective problem identification analysis process to help pinpoint,
understand, and correct problem areas within the Commission’s IT project
management structure.
Appendix E provides an illustrative example of how the Commission might
strengthen its management control structure and oversight processes in its
management of IT investment costs, schedules, and performance outcomes.

Project Status Reviews
The Commission’s IT project management oversight process did not require the IOC
and ITCPC to perform periodic IT portfolio reviews and project management


   IT Capital Investment Decision-Making Follow-Up (Audit 365)     March 29, 2004
                                                                               Page 14


assessments of the Commission’s $89 million FY 2003 IT operating budget. OIT
management performed these critical Commission-wide IT governance oversight
responsibilities internally, and on a periodic basis.
OIT management used project status reports and periodic program management
reviews to monitor its internal project management activities. These periodic
reviews served as the Commission’s primary basis to flag whether project
management activities were effective in attaining cost, schedule, and IT investment
expectations. However, the project management status reports did not contain
sufficient detail to identify cost, schedule, and performance variances between actual
and approved IT budgets, time schedules, and performance expectations.
For example, for the FY 2003 project status reports that we reviewed, and for the
OIT program management reviews that we attended, we found that:
   •   Controls for identifying variances in the use of approved IT funds consisted of
       reporting actual expenditures against approved funding levels (also referred
       to as burn rates, or cost/spend comparisons); and
   •   Controls for identifying whether IT projects were on schedule consisted of
       reporting the beginning and ending dates of a project’s life-cycle stage
       (baseline dates were not presented to inform reviewers on how actual project
       management accomplishments exceeded, met, or fell short of approved
       project schedule expectations).

In addition, we determined that funds approved by the ITCPC for specific
investments were reprogrammed to other projects without prior review and approval
of the IOC or ITCPC.

       Recommendation P
       The CIO, in coordination with OED, should establish, publish and use
       controls for managing project costs and schedules and measuring IT
       investment performance outcomes.

       Recommendation Q
       The CIO, in coordination with the ITCPC, IOC, and OED, should establish
       procedures for disseminating and regularly reviewing IT project milestones
       for IT investment costs, schedules, and performance expectations approved
       by the ITCPC.

Prior Audit Findings
Our audit of Information Technology Project Management (Audit Report No. 337,
dated January 24, 2002) reported our concerns about the effectiveness of the
Commission’s controls to manage the costs, schedules, and performance outcomes of
funded information technology projects. Specifically, we reported that the
Commission needed to:
   •   Establish standard project review board procedures and controls that
       enforced OIT’s internal project management policies and procedures;

   IT Capital Investment Decision-Making Follow-Up (Audit 365)      March 29, 2004
                                                                                Page 15


   •   Implement an automated project management information system to capture
       project costs and schedules in sufficient detail to facilitate performance-based
       acquisition analyses;
   •   Provide information to management and staff to effectively track, monitor,
       and report the status of IT investments; and
   •   Implement a project management reporting system that was integrated with
       the Commission’s financial management system.

Many of the recommendations agreed to by Commission management in our prior
audit have not been implemented.

       Recommendation R
       The CIO should implement the project management recommendations
       contained in Audit Report No. 337. Implementation should be tracked using
       the system described in Recommendation C.


PROCESS FOR EVALUATING IT INVESTMENT PERFORMANCE
The Commission did not implement effective management controls and processes
that enforced the use of post-implementation reviews and evaluations of completed
IT projects to identify best practices and potential control weaknesses. In addition,
the Commission did not effectively implement and enforce the capital planning and
investment control aspects of its approved Enterprise Architecture (EA) policy.
As a result, the Commission did not have a formal and disciplined method to
pinpoint significant management and operational control weaknesses in its
governance of information technology, or an effective basis to identify best practices
that could improve its IT capital planning and investment control processes.

Post-Implementation Reviews
The Commission did not perform post-implementation reviews on completed IT
projects to validate estimated benefits and costs, and to document effective
management practices. For example:
   •   The Office of Information Technology did not conduct routine post-
       implementation reviews to identify best practices that could be applied to
       future IT acquisitions and project management activities; and
   •   The Information Officer’s Council and IT Capital Planning Committee did not
       perform systematic post-implementation reviews to identify best practice
       trends that could improve the selection, control, and management of IT
       investments.

We also determined that the Office of the Executive Director (OED) did not fully
implement several of the recommendations made in our FY 2001 business process
review. Specifically, controls were not established for:



   IT Capital Investment Decision-Making Follow-Up (Audit 365)       March 29, 2004
                                                                                Page 16


   •   Rejecting project requests that did not comply with the Commission’s
       approved and documented IT investment selection and evaluation criteria;
       and
   •   Stopping IT projects that were over budget, off schedule, lacked timely
       program decisions and data, or deviated from established performance
       expectations.

We conclude that the Commission could strengthen this component of its IT capital
planning and investment control process by implementing a post-implementation
review and analysis process similar to the process illustrated in Appendix F.
For example, the CIO could establish a program management oversight office that is
responsible for evaluating and enforcing IT capital planning and investment control
policies and procedures. Specifically, the CIO should establish controls and
procedures for:
   •   Checking business cases for compliance with Commission guidance and
       criteria before submission to the IOC. These compliance checks and
       evaluations should include making sure that:

              −   Mandatory standard selection criteria are addressed;
              −   The project is appropriately divided into segments (allowing go/no
                  go decisions);
              −   Performance expectations are clearly defined;
              −   Costs are explicitly stated; and
              −   Costs, performance, and deliverables are explicitly scheduled.

   •   Monitoring the performance, deliverables, and cost of each project and
       preparing and disseminating monthly reports.

In addition, the OED could ensure that the Commission’s IT strategic planning
efforts support the Commission’s strategic plan and annual performance plans
prepared pursuant to the Government Performance and Results Act (GPRA). The
OED could also help evaluate IT capital planning and investment control policies
and procedures. For example, upon completion of each project the OED could:
   •   Evaluate how well the capital investment process served the Commission;
   •   Identify improvements that would assist the Commission on future projects;
       and
   •   Issue timely evaluation reports to the Chairman, CIO, ITCPC, IOC, and OIT.

       Recommendation S
       The CIO should establish procedures and controls for checking IT investment
       proposals and business cases for compliance with Commission guidance and
       criteria before submission to the IOC.




   IT Capital Investment Decision-Making Follow-Up (Audit 365)     March 29, 2004
                                                                              Page 17


       Recommendation T
       The CIO should establish procedures and controls for monitoring the
       performance, deliverables, and cost of each project and preparing and
       disseminating monthly reports to the Chairman, CIO, ITCPC, and IOC.

       Recommendation U
       The OED should establish procedures and controls for linking the
       Commission’s IT strategic planning efforts to the Commission’s strategic plan
       prepared pursuant to the Government Performance and Results Act (GPRA).

       Recommendation V
       The OED should establish procedures and controls for evaluating how well
       the Commission’s IT capital planning and investment control (CPIC) process
       serves the Commission and identifying improvements that would assist the
       Commission on future projects.


Enterprise Architecture
The Commission needs to fully integrate its EA framework into the Commission’s IT
capital planning and investment control processes. The Commission also needs to
use the EA framework to inform, guide, and manage IT investment decisions.
SECR 24-1.6, Information Technology Enterprise Architecture, dated November 25,
2002 sets forth Commission policy and responsibilities for implementing,
maintaining, and using an enterprise architecture framework for IT capital planning
and investment decision-making within the Commission. Responsibilities of
Division Directors and Office Heads, the Information Officers Council, and
Information Technology Capital Planning Committee include:
   •   Taking ownership of the EA, and establishing its priority for the Commission;
   •   Conducting regular project reviews to monitor on-going IT project compliance
       with the EA;
   •   Releasing an official version of the current and target architectures prior to
       annual review of the Commission’s IT portfolio;
   •   Providing strategic direction for the development of the Commission’s EA,
       and reviewing and approving changes to the EA;
   •   Using the EA to evaluate major technology investments and to make final
       funding decisions on the Commission’s IT investment portfolio;
   •   Monitoring progress toward stated EA project goals; and
   •   Evaluating IT investment results using the Commission’s EA framework.

Our audit showed that many of the EA responsibilities listed above were not given
sufficient priority, nor were Commission executives, managers, and staff held
accountable for implementing their respective EA responsibilities within the
Commission’s IT capital planning and investment control management framework.
As a result, the Commission has made little progress in implementing the EA
mandates of the Clinger-Cohen Act, and complying with Federal policy contained in


   IT Capital Investment Decision-Making Follow-Up (Audit 365)     March 29, 2004
                                                                                                      Page 18


OMB Circular A-130. The Clinger-Cohen Act and OMB Circular A-130, require
executive branch agencies to develop, maintain, and facilitate the implementation of
a sound and integrated information technology architecture within their respective
agency.13

         Recommendation W
         The CIO should enforce Commission policy to integrate the Commission’s
         Enterprise Architecture into the Commission’s IT capital planning, IT
         decision-making, and IT investment control and evaluation processes.


STAFFING AND RESOURCES
A common theme brought to our attention by the IOC, ITCPC, and OIT was the
need for the Commission to identify performance and resource gaps, and to allocate
sufficient resources, (e.g., funds, support staff, and contractor support) to help them
effectively implement and comply with the IT investment management control and
decision-making best practices discussed throughout this report. During our audit,
we identified several resource gaps that we believe impaired the Commission’s
capability to implement an effective and enforceable IT governance framework. For
example:
     •   The Commission’s Chief Information Officer position had been vacant for 15-
         months;14
     •   The Office of Information Technology (OIT) had 32 vacant positions out of a
         total of 128 authorized positions, as of January 2004;15
     •   Information Officers performed their IT governance responsibilities as an
         additional duty to their primary program area responsibilities; 16
     •   OIT staff responsible for facilitating the operation and management of the
         Commission’s IT capital investment decision-making processes were also
         performing duties associated with the positions vacant within OIT;
     •   The Commission’s enterprise architecture function was staffed with a single
         individual; and
     •   The Commission’s IT capital planning and investment control Management
         Information System (MIS) consisted of spreadsheets, word files, and other
         documents that were manually maintained and posted to a shared drive on
         the Commission’s network.

In addition, Information Officers told us that the Commission’s existing IT
governance framework and process demanded an inordinate amount of their time to
perform their perceived IT governance responsibilities. Information Officers also

13
   On October 8, 2003, we initiated an audit of the Commission’s enterprise architecture (EA). The audit will,
   in part, evaluate the Commission’s EA management processes, components, and migration strategy.
14
   On January 14, 2004, the SEC announced that the CIO position had been filled.
15
   We were told that hiring for the vacant positions within OIT was put on hold until the Commission filled the
   vacant CIO position.
16
   We think it critical that business experts serve as information officers and realize that their primary
   responsibilities should be related to Commission programs.

     IT Capital Investment Decision-Making Follow-Up (Audit 365)                       March 29, 2004
                                                                             Page 19


expressed concern about whether they could effectively perform their primary
program area management responsibilities should the Commission require them to
perform additional IT capital planning and investment control duties and functions.
We conclude that the Commission should address whether the resources that it has
identified and applied to support and implement its IT capital planning and
investment control decision-making framework and process are adequate for
implementing the mandates of the Clinger-Cohen Act. Doing so would help the
Commission ensure that it effectively implements a compliant IT capital planning
and investment control process that establishes and enforces accountability in how
the Commission uses taxpayer dollars to improve operational performance and
attains efficiencies in its acquisition and use of information technology.

      Recommendation X
      The CIO should solicit input from OIT and the IOC, ITCPC, OED, and
      Commission divisions and program offices to identify IT capital planning and
      investment control performance and resource gaps.

      Recommendation Y
      Based on the analysis and validation of the data and information received
      from implementing Recommendation X, the CIO and responsible officials
      should request sufficient resources to fill the documented performance and
      resource gaps.


In implementing Recommendations X and Y, the CIO and the ED should make sure
that the IOC and the ITCPC are provided adequate support staff and resources to
help them perform their CPIC responsibilities.




   IT Capital Investment Decision-Making Follow-Up (Audit 365)    March 29, 2004
                                                                                                                                                                                                   Page 20




                                                                                                                                                                        APPENDIX A

              STAGE 2 PERFORMANCE BY BEST PRACTICE COMPONENT

          C O M M IT M E N T (P o lic ie s )                   R A T IN G        P R E R E Q U IS IT E S (R e s o u rc e s )           R A T IN G             A C T IV IT IE S (O u tc o m e s )                 R A T IN G


S E C e xe c u tiv e s a n d lin e m a n a g e rs                           A n In fo rm a tio n T e c h n o lo g y                                 T h e S E C u s e s a s tru c tu re d p ro c e s s to
s u p p o rt a n d c a rry o u t IT in v e s tm e n t                       in v e s tm e n t c o m m itte e is o p e ra tin g .                    d e ve lo p n e w IT p ro p o s a ls .
c o m m itte e d e c is io n s .
S E C e xe c u tive s a n d m a n a g e rs fo llo w                         C o m m itte e m e m b e rs u n d e rs ta n d th e                      S E C e xe c u tive s m a k e fu n d in g
a n e s ta b lis h e d s e le c tio n p ro c e s s .                        in v e s tm e n t c o m m itte e ’s p o lic ie s a n d                  d e c is io n s fo r n e w IT p ro p o s a ls
                                                                            p ro c e d u re s      and        e xh ib it     c o re                 a c c o rd in g to a n e s ta b lis h e d p ro c e s s .
                                                                            c o m p e te n c ie s in u s in g th e in ve s tm e n t
                                                                            a p p ro a c h via tra in in g , e d u c a tio n , o r
                                                                            e xp e rie n c e .
A S E C -s p e c ific IT in v e s tm e n t p ro c e s s                     A d e q u a te re s o u rc e s a re p ro vid e d fo r                   T h e S E C ’s IT a s s e t in v e n to ry is
g u id e h a s b e e n c re a te d to d ire c t e a c h                     o p e ra tin g yo u r IT in ve s tm e n t                               d e ve lo p e d a n d m a in ta in e d a c c o rd in g
IT c o m m itte e ’s o p e ra tio n s .                                     c o m m itte e .                                                        to a w ritte n p ro c e d u re .

T h e S E C h a s w ritte n p o lic ie s a n d                              A d e q u a te re s o u rc e s a re p ro vid e d fo r                   IT a s s e t in v e n to ry c h a n g e s a re
p ro c e d u re s fo r p ro je c t m a n a g e m e n t.                     p e rfo rm in g th e IT a s s e t tra c k in g                          m a in ta in e d a c c o rd in g to a w ritte n
                                                                            a c tivitie s .                                                         p ro c e d u re .
T h e S E C h a s w ritte n p o lic ie s a n d                              T h e S E C h a s d e fin e d its b u s in e s s                        In ve s tm e n t in fo rm a tio n is a v a ila b le o n
p ro c e d u re s fo r m a n a g in g a n d                                 n e e d s o r s ta te d its m is s io n g o a ls .                      d e m a n d to d e c is io n -m a k e rs a n d o th e r
o ve rs e e in g IT p ro je c ts .                                                                                                                  a ffe c te d p a rtie s .
T h e S E C h a s w ritte n p o lic ie s a n d                              A d e q u a te re s o u rc e s a re p ro vid e d fo r                   S p e c ific S E C u s e rs a re id e n tifie d fo r
p ro c e d u re s fo r d e ve lo p in g a n d                               id e n tify in g b u s in e s s n e e d s a n d                         e a c h IT p ro je c t.
m a in ta in in g a n IT a s s e t in v e n to ry .                         a s s o c ia te d u s e rs .
A n o ffic ia l is a s s ig n e d re s p o n s ib ility fo r                A d e q u a te re s o u rc e s a re p ro vid e d fo r                   Id e n tifie d u s e rs p a rtic ip a te in p ro je c t
m a n a g in g th e IT a s s e t tra c k in g                               p ro p o s a l s e le c tio n a c tivitie s .                           m a n a g e m e n t th ro u g h o u t a p ro je c t’s life
p ro c e s s .                                                                                                                                      c yc le .
T h e S E C h a s w ritte n p o lic ie s a n d                              A d e q u a te re s o u rc e s a re p ro vid e d to                     S E C e xe c u tive s a n a ly ze a n d p rio ritize
p ro c e d u re s fo r id e n tify in g th e b u s in e s s                 a s s is t th e c o m m itte e (s ) in o v e rs e e in g                n e w IT p ro p o s a ls a c c o rd in g to
n e e d s a n d th e a s s o c ia te d u s e rs o f                         IT p ro je c ts .                                                       e s ta b lis h e d s e le c tio n c rite ria .
e a c h IT p ro je c t.
A n o ffic ia l is d e s ig n a te d to m a n a g e th e                    E a c h IT p ro je c t h a s a n d m a in ta in s a n                   E a c h S E C IT in ve s tm e n t c o m m itte e is
IT s e le c tio n p ro c e s s .                                            a p p ro v e d p ro je c t m a n a g e m e n t p la n                   c re a te d a n d d e fin e d s o th a t c o m m itte e
                                                                            th a t in c lu d e s c o s t a n d       s c h e d u le                 m e m b e rs h ip in te g ra te s b o th IT a n d
                                                                            c o n tro ls .                                                          b u s in e s s k n o w le d g e .
                                                                            T h e IT in v e s tm e n t c o m m itte e u s e s                       S E C IT in v e s tm e n t c o m m itte e s
                                                                            in fo rm a tio n fro m th e IT a s s e t in v e n to ry                 o p e ra te a c c o rd in g to w ritte n p o lic ie s
                                                                            a s a p p lic a b le .                                                  a n d p ro c e d u re s c o n ta in e d in th e S E C ’s
                                                                                                                                                    IT in ve s tm e n t p ro c e s s g u id e .

                                                                            A n IT in ve s tm e n t c o m m itte e e xis ts a n d                   E a c h p ro je c t’s u p -to -d a te c o s t a n d
                                                                            o v e rs e e s     th e   d e v e lo p m e n t  and                     s c h e d u le d a ta a re p ro vid e d to th e
                                                                            m a in te n a n c e o f IT a s s e t tra c k in g                       a p p ro p ria te IT in v e s tm e n t c o m m itte e .
                                                                            a c tivitie s .
                                                                            IT s ta ff a re tra in e d in S E C ’s b u s in e s s                   U s in g e s ta b lis h e d c rite ria , th e IT
                                                                            n e e d s id e n tific a tio n .                                        in ve s tm e n t c o m m itte e o v e rs e e s e a c h
                                                                                                                                                    IT p ro je c t’s p e rfo rm a n c e re g u la rly b y
                                                                                                                                                    c o m p a rin g a c tu a l c o s t a n d s c h e d u le
                                                                                                                                                    d a ta to e xp e c ta tio n s .
                                                                            A ll IT p ro je c ts a re id e n tifie d in th e IT                     T h e IT in ve s tm e n t c o m m itte e p e rfo rm s
                                                                            a s s e t in v e n to ry.                                               s p e c ia l re vie w s o f p ro je c ts th a t h a v e
                                                                                                                                                    n o t m e t p re d e te rm in e d p e rfo rm a n c e
                                                                                                                                                    s ta n d a rd s .


                                                                                                                                                    A p p ro p ria te c o rre c tiv e a c tio n s fo r e a c h
                                                                                                                                                    u n d e r p e rfo rm in g p ro je c t a re d e fin e d ,
                        G R E E N : S ta g e 2 B e s t P ra c tic e s in p la c e ,                                                                 d o c u m e n te d , a n d a g re e d to b y th e IT
                        o p e ra tin g , c le a rly u n d e rs to o d a n d fo llo w e d .                                                          in ve s tm e n t c o m m itte e a n d p ro je c t
                                                                                                                                                    m a n a g e r.
                        Y E L L O W : S ta g e 2 B e s t P ra c tic e s a re s o m e -                                                              C o rre c tiv e a c tio n s a re im p le m e n te d
                        w h a t in p la c e a n d o p e ra tin g . E x p e c te d o u t-                                                            a n d tra c k e d u n til th e d e s ire d o u tc o m e
                        c o m e s a re s o m e -w h a t d e fin e d , u n d e rs to o d ,                                                           is a c h ie v e d .
                        a n d fo llo w e d .                                                                                                        H is to ric a l IT a s s e t in ve n to ry re c o rd s
                                                                                                                                                    a re m a in ta in e d a n d u s e d fo r fu tu re
                        R E D : S ta g e 2 B e s t P ra c tic e s n o t in p la c e a n d                                                           s e le c tio n s a n d a s s e s s m e n ts .
                        o p e ra tin g . E x p e c te d o u tc o m e s a re n o t d e fin e d
                        n o r a re th e y c le a rly u n d e rs to o d .                                                                            T h e b u s in e s s n e e d s fo r e a c h IT p ro je c t
                                                                                                                                                    a re c le a rly id e n tifie d a n d d e fin e d .




                 IT Capital Investment Decision-Making Follow-Up (Audit 365)                                                                                         March 29, 2004
                                                                                                                           Page 21



                                                                                                              APPENDIX B

    HIGH-LEVEL IT INVESTMENT PROCESS FLOW DIAGRAM

The IT capital planning and investment management process flow diagram below
illustrates an example of the high-level documents, decisions, and processes that the
Commission could implement to improve its IT investment management controls
and processes. It assumes that the Commission’s IOC and ITCPC exercise total
visibility over the Commission’s entire information technology portfolio. It is based
on the premise that the Commission’s IT Strategic Implementation Plan aligns with
the strategic goals and objectives contained in the Commission’s Strategic Plan, as
supported by division and program office specific IT business strategies.

The processes below also provide an example of who within the Commission should
be held accountable for implementing and enforcing specific components of IT
capital planning and investment decision-making. The Commission could use a
comparable process flow diagram to help develop and validate existing and needed
IT capital planning and investment management policies and control procedures.


              Example of High-level Controls
              and Processes
                                                                            CIO/
              SEC     DIV/OFF             CIO               OIT          CONTRACTOR        IOC/OED           ITCPC

                                                          IT Strategic
             GPRA                                       Implementation                                  NO
                     Business
                                                              Plan
                     Strategies                    NO
                                                                                              Meet
                                                                          Business           Criteria
                                                                           Cases
                                                                                          YES
                                        Prepare
                                        Business        Infrastructure
                     Program
                                         Case               Project
                      Project                                                             Validate
                                                          Requests
                     Requests                                                                 &
                                                                                          Prioritize                 NO
                                  YES



                                                                                            List
                                                                                             to                Approve
                                                                                          ITCPC

                                                                                                                     YES


                                                            Project                          Post
                                                          Management                    Implementation
                                                           & Monitor                        Review




                                                            ITCPC         Exceptions   CHAIRMAN
                                                           PROCESS




   IT Capital Investment Decision-Making Follow-Up (Audit 365)                                               March 29, 2004
                                                                                Page 22



                                                                      APPENDIX C

           SAMPLE TIMELINE FOR IMPLEMENTING AUDIT
                     RECOMMENDATIONS



Sample timelines for implementing the audit recommendations in this report are
illustrated on the following pages of this Appendix. The tables provide an example
of how the Chairman could monitor and track the Commission’s progress in
implementing audit recommendations that will move the Commission into Stage 2
investment management maturity.
Several software products are available (e.g., Microsoft Project) that could be used to
automate and analyze the Commission’s progress in implementing these audit
recommendations. Also, the sample timelines illustrated on the following pages
could be integrated into the Chairman’s Dash Board performance reporting system.
We present several sample timeline views that could be useful in accounting for the
timely performance:
   •   A comprehensive view of all audit recommendations by responsible position,
       applicable audit report number and pages, and categorization of the
       recommendations by major IT investment areas;
   •   Chairman specific audit recommendations;
   •   CIO specific audit recommendations; and
   •   OED specific audit recommendations.




   IT Capital Investment Decision-Making Follow-Up (Audit 365)       March 29, 2004
                                                                                                                                          Page 23




      COMPREHENSIVE VIEW OF ALL AUDIT RECOMMENDATIONS
                 BY RESPONSIBLE POSITION


               APPLICABLE       RECOMMEND-
RESPONSIBLE                                    RECOMMENDATION TITLE BY MAJOR                      SAMPLE TIMELINE FOR IMPLEMENTING AUDIT
               REPORT No.          ATION
  POSITION                                                AREA                                              RECOMMENDATIONS
               AND PAGE(S)        LETTER

                                                                                                      FY 2004                     FY 2005
                                                                                               Jan-Mar Apr-Jun Jul-Sep Oct-Dec Jan-Mar Apr-Jun Jul-Sep
                                             CIO Responsibilities
                                             Delegate authority to CIO to issue IT policy
Chairman      #365, pp. 8-9         A        and regulations and to implement
                                             recommendations contained in this report
                                             Approve a process to track CIO progress in
Chairman      #365, pp. 8-9         C
                                             implementing audit recommendations
                                             IT Governance Policies
                                             Prepare Action Memorandum to modify CFR
CIO           #365, pp. 8-9         B        to formally delegate authority to issue
                                             policies/regulations to CIO
CIO           #365, pp 9-10         D        Assess, revise, and reissue IT Strategic Plan

                                             Finalize and publish Commission-wide IT
CIO           #365, pp 9-10         E
                                             capital planning and investment control policy
                                             Jointly develop, approve, and publish ITCPC
CIO           #365, pp 9-11         F
                                             charter with OED and ITCPC
                                             Jointly develop, approve, and publish IOC
CIO           #365, pp 9-11         G
                                             charter with the IOC and OED
                                             Identify all IT planning-related work groups,
CIO           #365, pp 9-11         H        develop charters, and integrate into IT capital
                                             planning framework
                                             IT Investment Selection Process
                                             Use a single IT investment control process for
CIO           #365, pp. 11-12       I        approving the Commission's annual IT
                                             operating budget
                                             Approve and publish standard IT investment
CIO           #365, pp. 11-12       J
                                             selection criteria

                                             Implement and use a documented process to
CIO           #365, pp. 11-12       K
                                             score, prioritize, and fund IT investments

                                             Establish and publish IT investment dollar
CIO           #365, pp. 11-13       L        thresholds requiring business cases, IOC
                                             review, and ITCPC approval
                                             Establish and publish business case
CIO           #365, pp. 11-13       M
                                             development guidelines
                                             Develop, publish, and annually update
CIO           #365, pp. 11-13       N
                                             program office IT business strategies
                                             Use program office IT business strategies and
                                             OIT IT strategic plan when reviewing,
CIO           #365, pp. 11-13       O
                                             analyzing, and monitoring IT investment
                                             portfolio
                                             IT Investment Control Process
                                             Establish and use controls for managing
CIO           #365, pp. 13-14       P        project costs, schedules, and performance
                                             outcomes
                                             Regularly review IT project costs and
CIO           #365, pp. 13-14       Q
                                             milestones
                                             Implement the project management
CIO           #365, pp. 13-15       R        recommendations contained in Audit Report                       See B, E, F, G, H, I below
                                             No. 337 (see below)

                                             Establish and publish project SDLC migration
CIO           #337, p. 6            B        checklists and use the checklists as a control
                                             during project management reviews

                                             Establish a project management SECR and
CIO           #337, p. 8            E
                                             enforce the project management procedures

                                             Establish standardized project naming
                                             conventions, data descriptions, and data
CIO           #337, p. 9            F
                                             collection methods to facilitate effective
                                             project management tracking




      IT Capital Investment Decision-Making Follow-Up (Audit 365)                                                   March 29, 2004
                                                                                                                                        Page 24



      COMPREHENSIVE VIEW OF ALL AUDIT RECOMMENDATIONS
                 BY RESPONSIBLE POSITION

                                                                                                  SAMPLE TIMELINE FOR IMPLEMENTING AUDIT
               APPLICABLE       RECOMMEND-                                                                  RECOMMENDATIONS
RESPONSIBLE                                    RECOMMENDATION TITLE BY MAJOR
               REPORT No.          ATION
  POSITION                                                AREA                                        FY 2004                     FY 2005
               AND PAGE(S)        LETTER
                                                                                               Jan-Mar Apr-Jun Jul-Sep Oct-Dec Jan-Mar Apr-Jun Jul-Sep
                                             IT Investment Control Process
                                             Develop controls that require COTR's to
CIO           #337, p. 9            G        develop statements of work that map to OIT's
                                             project management methodology
                                             Establish an integrated project management
                                             tracking and control process to track, monitor,
CIO           #337, pp. 9-10        H
                                             and report the status of contract major cost
                                             elements
                                             Implement a performance-based acquistion
CIO           #337, pp. 10-11       I
                                             anaysis process
                                             IT Investment Evaluation Process
                                             Check investment proposals and business
CIO           #365, pp. 15-16       S        cases for compliance with guidelines and
                                             procedures
                                             Monitor and report monthly on project costs,
CIO           #365, pp. 15-17       T
                                             schedules, and performance
OED           #365, pp. 15-17       U        Tie IT strategic planning to GPRA
                                             Routinely evaluate IT capital planning process
OED           #365, pp. 15-17       V        and identify IT capital planning process
                                             improvements
                                             Require ITCPC, IOC, and program offices to
CIO           #365, pp. 17-18       W
                                             comply with SECR 24-1.6
                                             Staffing and Resources
CIO/OED       #365, pp. 18-19       X        Identify performance and resource gaps
                                             Fund identified performance and resource
              #365, pp. 18-19
CIO/OED                             Y        gaps




      IT Capital Investment Decision-Making Follow-Up (Audit 365)                                                   March 29, 2004
                                                                                                                                  Page 25



      AUDIT RECOMMENDATIONS ADDRESSED TO THE CHAIRMAN


                APPLICABLE     RECOMMEND-
RESPONSIBLE                                   RECOMMENDATION TITLE BY MAJOR                   SAMPLE TIMELINE FOR IMPLEMENTING AUDIT
                REPORT No.        ATION
  POSITION                                               AREA                                           RECOMMENDATIONS
                AND PAGE(S)      LETTER

                                                                                                  FY 2004                     FY 2005
                                                                                           Jan-Mar Apr-Jun Jul-Sep Oct-Dec Jan-Mar Apr-Jun Jul-Sep
                                            CIO Responsibilities
                                            Delegate authority to CIO to issue IT policy
Chairman       #365, pp. 8-9       A        and regulations and to implement
                                            recommendations contained in this report

                                            Approve a process to track CIO progress in
Chairman       #365, pp. 8-9       C
                                            implementing audit recommendations




           IT Capital Investment Decision-Making Follow-Up (Audit 365)                                         March 29, 2004
                                                                                                                                      Page 26



        AUDIT RECOMMENDATIONS ADDRESSED TO THE CHIEF
                    INFORMATION OFFICER

               APPLICABLE       RECOMMEND-
RESPONSIBLE                                    RECOMMENDATION TITLE BY MAJOR                      SAMPLE TIMELINE FOR IMPLEMENTING AUDIT
               REPORT No.          ATION
  POSITION                                                AREA                                              RECOMMENDATIONS
               AND PAGE(S)        LETTER

                                                                                                      FY 2004                     FY 2005
                                                                                               Jan-Mar Apr-Jun Jul-Sep Oct-Dec Jan-Mar Apr-Jun Jul-Sep
                                             IT Governance Policies
                                             Prepare Action Memorandum to modify CFR
CIO           #365, pp. 8-9         B        to formally delegate authority to issue
                                             policies/regulations to CIO

CIO           #365, pp 9-10         D        Assess, revise, and reissue IT Strategic Plan

                                             Finalize and publish Commission-wide IT
CIO           #365, pp 9-10         E
                                             capital planning and investment control policy
                                             Jointly develop, approve, and publish ITCPC
CIO           #365, pp 9-11         F
                                             charter with OED and ITCPC
                                             Jointly develop, approve, and publish IOC
CIO           #365, pp 9-11         G
                                             charter with the IOC and OED
                                             Identify all IT planning-related work groups,
CIO           #365, pp 9-11         H        develop charters, and integrate into IT capital
                                             planning framework
                                             IT Investment Selection Process
                                             Use a single IT investment control process for
CIO           #365, pp. 11-12       I        approving the Commission's annual IT
                                             operating budget
                                             Approve and publish standard IT investment
CIO           #365, pp. 11-12       J
                                             selection criteria

                                             Implement and use a documented process to
CIO           #365, pp. 11-12       K
                                             score, prioritize, and fund IT investments

                                             Establish and publish IT investment dollar
CIO           #365, pp. 11-13       L        thresholds requiring business cases, IOC
                                             review, and ITCPC approval
                                             Establish and publish business case
CIO           #365, pp. 11-13       M
                                             development guidelines




       IT Capital Investment Decision-Making Follow-Up (Audit 365)                                                 March 29, 2004
                                                                                                                                       Page 27



           AUDIT RECOMMENDATIONS ADDRESSED TO THE CHIEF
                       INFORMATION OFFICER

                                                                                                  SAMPLE TIMELINE FOR IMPLEMENTING AUDIT
               APPLICABLE       RECOMMEND-                                                                  RECOMMENDATIONS
RESPONSIBLE                                    RECOMMENDATION TITLE BY MAJOR
               REPORT No.          ATION
  POSITION                                                AREA                                        FY 2004                     FY 2005
               AND PAGE(S)        LETTER
                                                                                               Jan-Mar Apr-Jun Jul-Sep Oct-Dec Jan-Mar Apr-Jun Jul-Sep
                                             IT Investment Selection Process
                                             Develop, publish, and annually update
CIO           #365, pp. 11-13       N
                                             program office IT business strategies
                                             Use program office IT business strategies and
                                             OIT IT strategic plan when reviewing,
CIO           #365, pp. 11-13       O
                                             analyzing, and monitoring IT investment
                                             portfolio
                                             IT Investment Control Process
                                             Establish and use controls for managing
CIO           #365, pp. 13-14       P        project costs, schedules, and performance
                                             outcomes
                                             Regularly review IT project costs and
CIO           #365, pp. 13-14       Q
                                             milestones
                                             Implement the project management
CIO           #365, pp. 13-15       R        recommendations contained in Audit Report                       See B, E, F, G, H, I below
                                             No. 337 (see below)

                                             Establish and publish project SDLC migration
CIO           #337, p. 6            B        checklists and use the checklists as a control
                                             during project management reviews

                                             Establish a project management SECR and
CIO           #337, p. 8            E
                                             enforce the project management procedures

                                             Establish standardized project naming
                                             conventions, data descriptions, and data
CIO           #337, p. 9            F
                                             collection methods to facilitate effective
                                             project management tracking

                                             Develop controls that require COTR's to
CIO           #337, p. 9            G        develop statements of work that map to OIT's
                                             project management methodology
                                             Establish an integrated project management
                                             tracking and control process to track, monitor,
CIO           #337, pp. 9-10        H
                                             and report the status of contract major cost
                                             elements
                                             Implement a performance-based acquistion
CIO           #337, pp. 10-11       I
                                             anaysis process
                                             IT Investment Evaluation Process
                                             Check investment proposals and business
CIO           #365, pp. 15-16       S        cases for compliance with guidelines and
                                             procedures
                                             Monitor and report monthly on project costs,
CIO           #365, pp. 15-17       T
                                             schedules, and performance
                                             Require ITCPC, IOC, and program offices to
CIO           #365, pp. 17-18       W
                                             comply with SECR 24-1.6
                                             Staffing and Resources
CIO/OED       #365, pp. 18-19       X        Identify performance and resource gaps
                                             Fund identified performance and resource
              #365, pp. 18-19
CIO/OED                             Y        gaps




          IT Capital Investment Decision-Making Follow-Up (Audit 365)                                               March 29, 2004
                                                                                                                                  Page 28



      AUDIT RECOMMENDATIONS ADDRESSED TO THE EXECUTIVE
                         DIRECTOR


               APPLICABLE       RECOMMEND-
RESPONSIBLE                                    RECOMMENDATION TITLE BY MAJOR                     SAMPLE TIMELINE FOR IMPLEMENTING AUDIT
               REPORT No.          ATION
  POSITION                                                AREA                                             RECOMMENDATIONS
               AND PAGE(S)        LETTER

                                                                                                     FY 2004                     FY 2005
                                                                                              Jan-Mar Apr-Jun Jul-Sep Oct-Dec Jan-Mar Apr-Jun Jul-Sep


                                             IT Investment Evaluation Process
OED           #365, pp. 15-17       U        Tie IT strategic planning to GPRA
                                             Routinely evaluate IT capital planning process
OED           #365, pp. 15-17       V        and identify IT capital planning process
                                             improvements
                                             Staffing and Resources

CIO/OED       #365, pp. 18-19       X
                                             Identify performance and resource gaps
                                             Fund identified performance and resource
              #365, pp. 18-19
CIO/OED                             Y        gaps




          IT Capital Investment Decision-Making Follow-Up (Audit 365)                                           March 29, 2004
                                                                                                                     Page 29



                                                                                                     APPENDIX D


    EXAMPLE OF AN IT INVESTMENT SELECTION PROCESS

The sample IT investment selection process flow diagram below illustrates the
documents, processes, and decision points that the Commission could adopt and
implement to improve its IT investment selection process. The Commission could
use a comparable process flow diagram to help develop and validate existing and
needed IT investment selection policies and control procedures.




          Selection Phase
                                                                         CIO/
          SEC      DIV/OFF             CIO                OIT         CONTRACTOR    IOC                ITCPC
                                                       IT Strategic
         GPRA                                        Implementation                             NO
                  Business
                                                           Plan
                  Strategies                    NO
                                                                                      Meet
                                                                        Business     Criteria
                                                                         Cases
                                                                                   YES
                                     Prepare
                                     Business        Infrastructure
                  Program
                                      Case               Project
                   Project                                                         Validate
                                                       Requests
                  Requests                                                             &
                                                                                   Prioritize                  NO
                               YES


                                                                                     List
                                                                                      to                 Approve
                                                                                   ITCPC

                                                                                                               YES



                                                                                                           To
                                                                                                         Control
                                                                                                         Phase




   IT Capital Investment Decision-Making Follow-Up (Audit 365)                                       March 29, 2004
                                                                                                                         Page 30



                                                                                                          APPENDIX E


     EXAMPLE OF AN IT INVESTMENT CONTROL PROCESS

The sample IT investment control process flow diagram below illustrates the
documents, processes, and decision points that the Commission could adopt and
implement to improve its IT investment control process. The Commission could use
a comparable process flow diagram to help develop and validate existing and needed
IT investment control policies and procedures.




            Control Phase
          CIO                OIT                   OAPM           DIV/OFF          IOC          ITCPC        CHAIRMAN

        From Select
           Phase            Prepare                           Provide Input
                            Prepare
                            SOW or                             to SOW or
                            SOWOrder
                           Task  or                            Task Order
         Approved          Task Order              Award
          Projects                                Contract                        Monitor       Advised       Advised
                                                  or Issue
                                                 Task Order

                        Manage Project                         Participate
                        (Cost, Schedule,                            in
          Monitor                                               Project
                         Performance)
                                                              Management

                      NO                   YES
         Notified          Deviation


                                                                                                              Notified
                      Status Report
                                                                                   Mitigate
                                                                                Project Risks
                                                                                  and Make
                                                                                                   Make
                                   Exception                                      Go No-Go
                                                                                                    Go
            Take                    Report                                    Recommendation
                                                                                                  No-Go
         Corrective                                                                   to
                                                                                                 Decisions
           Action                                                                  ITCPC
         Based On
         IOC/ITCPC
          Direction




   IT Capital Investment Decision-Making Follow-Up (Audit 365)                                        March 29, 2004
                                                                                                                           Page 31


                                                                                                           APPENDIX F

   EXAMPLE OF AN IT INVESTMENT EVALUATION PROCESS

The sample IT investment evaluation process flow diagram below illustrates the
documents, processes, and decision points that the Commission could adopt and
implement to improve its IT investment evaluation process. The Commission could
use a comparable process flow diagram to help develop and validate existing and
needed IT investment evaluation policies and control procedures.




        Evaluation Phase
             CIO                       OED                     OIT            DIV/OFF            IOC           ITCPC

                               From Control
                                  Phase

        Provide Input
                                                                                                           Provide Input
            and                                         Provide Input    Provide Input    Provide Input
                                                                                                               and
       Assess Results                                       and              and              and
                                    Completed                                                             Assess Results
                                                       Assess Results   Assess Results   Assess Results
                                     Projects




                                 Conduct
                                   Post
                              Implementation
                                  Review


                                                STOP

                                 Process                    Revise            Revise          Revise          Revise
           Revise             Improvements
                        YES                       NO      Processes         Processes       Processes       Processes
         Processes               Needed




                          Revise
                        Processes




   IT Capital Investment Decision-Making Follow-Up (Audit 365)                                            March 29, 2004
                                                                            Page 32



                                                                  APPENDIX G

 OMB CIRCULAR A-11, SECTION 300--PLANNING, BUDGETING,
  ACQUISITION, AND MANAGEMENMT OF CAPITAL ASSETS

Section 300 of OMB Circular A-11 (2003) is contained on the following pages of this
Appendix. Section 300 of the Circular contains useful information that could be
used by the Commission in its efforts to strengthen its processes for selecting,
controlling, and evaluating IT investments and managing the Commission’s portfolio
of IT investments. We suggest that the Commission use Section 300 of OMB
Circular A-11 as a guide for establishing IT investment selection criteria and
questions to evaluate the merits of IT investments.




   IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 33




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 34




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 35




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 36




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 37




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 38




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 39




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 40




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 41




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 42




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 43




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 44




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 45




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 46




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 47




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 48




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 49




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 50




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 51




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 52




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 53




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 54




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 55




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 56




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 57




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 58




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 59




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 60




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 61




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 62




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 63




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
                                                                         Page 64




IT Capital Investment Decision-Making Follow-Up (Audit 365)   March 29, 2004
